Matthew T. Martens

May 26, 2021

+1 202 663 6921 (t)
+1 202 663 6363 (f)
matthew.martens@wilmerhale.com

By Electronic Filing
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, D.C. 20543

Re: The North American Mission Board of the Southern Baptist Convention, Inc. v. Will
McRaney, No. 20-1158
Dear Mr. Harris:
I represent Petitioner in the above-captioned case. The petition for a writ of certiorari
was filed on February 17, 2021, and the brief in opposition was filed on May 20, 2021. Under
this Court’s Rule 15.5, I write to waive the 14-day waiting period and request that the petition,
response, forthcoming reply, and amicus briefs be distributed to the Court without delay for its
consideration.
I understand that upon the submission of this waiver, the petition, response, forthcoming
reply, and amicus briefs will be distributed on the next scheduled distribution date—June 1,
2020—for consideration at the Court’s June 17 Conference. We will submit a reply to the brief
in opposition before this distribution date so that the Court will have full briefing well in advance
of its Conference.

Respectfully submitted,

Matthew T. Martens
Counsel for Petitioner

cc: Scott E. Gant, Counsel for Respondent (by electronic mail)

